No. 20-600
In the

Supreme Court of the United States

ANTHONY SEVY,
Petitioner,
v.
COURT OFFICER PHILIP BARACH,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

BRIEF IN OPPOSITION
T. Joseph Seward
Counsel of Record
K ali M. L. Henderson
Seward Henderson PLLC
210 East 3rd Street, Suite 212
Royal Oak, MI 48067
(248) 733-3580
jseward@sewardhenderson.com
Attorney for Respondent

299848

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Did the Sixth Circuit err by granting Defendant qualified
immunity on the issue of whether to extend First
Amendment protection to disorderly conduct where
the plaintiff claims that his arrest was justified, but the
amount of force used to execute it was excessive and in
retaliation for his protest executed in an unlawful fashion?

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

Plaintiff has crafted an issue where none
exists through a series of misrepresentations
that do not warrant this Court’s attention  . . . . . 2
A. Plaintiff’s narrow Graham application
is unsupported by case law and Plaintiff
omits the controlling precedent that
negates his argument  . . . . . . . . . . . . . . . . . . 3
B. Plaintiff has misrepresented the legal
holdings of other First Amendment
retaliation claims to fabricate a conflict
with the Sixth Circuit’s decision where
no actual conflict exists . . . . . . . . . . . . . . . . . 4

iii
Table of Contents
Page
II. The Sixth Circuit properly decided the
issue on the grounds of qualified immunity
because Graham conclusively decided the
issue and any deviation would disturb the
clarity achieved by Graham . . . . . . . . . . . . . . . . . 7
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Anderson v. Franklin Cnty., Mo.,
192 F.3d 1125 (8th Cir. 1999) . . . . . . . . . . . . . . . . . . . . 5
Ashcroft v. al-Kidd,
563 U.S. 731 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Bistrian v. Levi,
912 F.3d 79 (3rd Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . 4
Callahan v. Fed. Bureau of Prisons,
965 F.3d 520 (6th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . 4
Campbell v. Mack,
777 Fed. App’x 112 (6th Cir. 2019) . . . . . . . . . . . . . . . . 6
Graham v. Connor,
490 U.S. 386 (1989) . . . . . . . . . . . . . . . . . . . . . . 3, 5, 7, 8
Jenkins v. Town of Vardaman, Miss.,
899 F. Supp. 2d 526 (N.D. Miss. 2012)  . . . . . . . . . . . . 5
Kirk v. Bostock,
No. 09–CV–15018–DBH, 2011 WL 52733
(E.D. Mich. Jan. 7, 2011) . . . . . . . . . . . . . . . . . . . . . . . . 5
Lagrone v. Hall,
No. 91–CV–7133–ACW, 1992 WL 350702
(N.D.Ill. Nov. 23, 1992) . . . . . . . . . . . . . . . . . . . . . . . . . 5

v
Cited Authorities
Page
Mack v. Yost,
968 F.3d 311 (3d Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . 4
Malley v. Briggs,
475 U.S. 335 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Montoya v. City of Albuquerque,
No. 03–CV–0261–JB, 2004 WL 3426436
(D.N.M. May 10, 2004) . . . . . . . . . . . . . . . . . . . . . . . . . 5
Nieves v. Bartlett,
139 S. Ct. 1715, 204 L.Ed. 2d 1 (2019) . . . . . . . . . 7, 8, 9
Price v. Elder,
175 F. Supp. 3d 676 (N.D. Miss. 2016) . . . . . . . . . . . . . 5
Wilson v. Layne,
526 U.S. 603 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Ziglar v. Abbasi,
137 S. Ct. 1843, 198 L. Ed. 2d 290 (2017) . . . . . . . . 3, 4
Statutes and Other Authorities
Mich. Comp. Laws § 750.170 . . . . . . . . . . . . . . . . . . . . . . . 2
Mich. Comp. Laws § 750.479 . . . . . . . . . . . . . . . . . . . . . . . 2

1
INTRODUCTION
This Court should decline to review the issue
presented in this case because it is not the expansive
First Amendment issue expressed by Plaintiff, nor is
case law split on the issue. The law is already clear: the
First Amendment does not protect disorderly conduct
and the Fourth Amendment is the proper vehicle to
rectify excessive force violations. Plaintiff has boldly
misrepresented the issue and the case law cited in his
petition. And, while Plaintiff is not wrong in his suggestion
that the issue of police retaliation through force is both
poignant and relevant to American society today; he is
wrong to suggest that this case presents an opportunity
to address such issues.
Here, it is undisputed that the Defendant had lawful
authority to arrest the Plaintiff for disorderly conduct,
i.e. unprotected speech. Plaintiff’s comparisons to officers
responding to crowds of protesters holds no water when
viewed in this context because the protesters there are
engaged in protected speech and the officers have no
lawful basis to arrest them. To permit Plaintiff’s claims
here would discourage officers from employing any level
of force in the face of a need to exercise lawful authority.
Moreover, contrary to Plaintiff’s statements, he is not
left without remedy for the force employed against him; his
Fourth Amendment claim provides a vehicle to address his
injuries regardless of his plea to disorderly conduct. Thus,
the Sixth Circuit correctly concluded that the Defendant
Court Officer is entitled to qualified immunity and this
Court need not take up this matter for review.

2
STATEMENT
Plaintiff’s statement of the case omits two facts that
necessitate inclusion: following the incident at the court
house, a Judge signed a warrant for Plaintiff’s arrest
on charges of “assaulting or obstructing a public officer,
Mich. Comp. Laws § 750.479, and disturbing the peace,
Mich. Comp. Laws § 750.170.” [Petition App. 29, District
Ct. Opinion] He later pled no contest to the charge of
disturbing the peace. [Petition App. 29, District Ct.
Opinion]
This plea underlies the Sixth Circuit’s decision to
grant Defendant Court Officer Phillip Barach qualified
immunity on Plaintiff’s First Amendment Retaliation
claim. [Petition App. 10-12] The Sixth Circuit analyzed
its own existing precedent, alongside that of this Court
and other Circuits, and found that it need not reach the
constitutional question because in February 2017, when
the arrest occurred, it was not clearly established that
an officer could also violate the First Amendment solely
by applying excessive force when making an otherwise
lawful arrest. [Petition App. 10-12]
ARGUMENT
I.

PLAINTIFF HAS CRAFTED AN ISSUE WHERE
NON E EX ISTS THROUGH A SERIES OF
MISREPRE SEN TAT IONS T H AT DO NO T
WARRANT THIS COURT’S ATTENTION.

Plaintiff is reaching beyond reality to entice this Court
to review his matter, and in doing so, Plaintiff commits
the unforgivable folly of misrepresentation. Plaintiff’s

3
misrepresentations fall into two categories: first, he
misrepresents the current state of the law by omitting
controlling precedent; second, he misrepresents the legal
holdings and factual backgrounds of the case law he relies
upon to advance his position that the Sixth Circuit erred.
When these misrepresentations are corrected, there
should be no basis for the Court to review this matter.
A.

Plaintiff’s narrow Graham application is
unsupported by case law and Plaintiff omits
the controlling precedent that negates his
argument.

Plaintiff posits that the Sixth Circuit erred in broadly
interpreting this Court’s holding in Graham v. Connor,
490 U.S. 386 (1989), because it “runs directly against
Supreme Court precedent and the precedent of other
Circuits.” [Petition, p. 9] Plaintiff never cites to any
precedent that holds Graham is intended to be read in
such a narrow fashion.
Instead, Plaintiff illogically relies on a string of
Bivens cases to support his proposed narrow Graham
interpretation that would allow the First Amendment to
ensnare itself with use of force reviews. Without support,
he posits that Graham should be read to support a First
Amendment claim premised on use of force because the
two amendments have been applied in similar fashions
in the Bivens context. In doing so, Plaintiff omits that
this Court has never extended Bivens actions to the
First Amendment, and has, instead, suggested that such
extensions are “disfavored.” Ziglar v. Abbasi, 137 S. Ct.
1843, 1857, 198 L. Ed. 2d 290 (2017).

4
The Third Circuit Court of Appeals in Mack v. Yost,
968 F.3d 311, 325 (3rd Cir. 2020), recently applied Ziglar to
overrule one of the very cases Plaintiff relies on, Paton v.
La Prade, and held that Bivens does not extend to redress
First Amendment claims. See also Bistrian v. Levi, 912
F.3d 79, 95 (3rd Cir. 2018); Callahan v. Fed. Bureau of
Prisons, 965 F.3d 520, 523–24 (6th Cir. 2020). Plaintiff’s
failure to discuss these cases erodes his credibility along
with the premise of his argument. By misrepresenting the
case law to support his made-up narrow interpretation,
he has not presented this Court with a basis for review,
but merely the writer’s ipse dixit.
B. Plaintiff has misrepresented the legal holdings
of other First Amendment retaliation claims
to fabricate a conflict with the Sixth Circuit’s
decision where no actual conflict exists.
Plaintiff also misrepresents the holdings of the
lower courts cited in his brief to suggest that this Court
should correct the Sixth Circuit’s holding because it is in
conflict with these other courts. A string of cases (Cook,
Campbell, Lopez, Watison, Mussa, Bio-Ethical Reform)
across pages six and seven of Plaintiff’s petition create
the illusion that other courts have considered this issue
and held, or at least suggested, that retaliation claims
can proceed based on allegations of excessive force. This
is not true; these cases do not stand for that proposition.
Plaintiff has misrepresented the legal and factual basis
of those cases.
Moreover, the few courts that have considered this
issue have reached similar holdings as the Sixth Circuit did
in this case; some have even gone a step further and found

5
that constitutional violations for retaliation cannot proceed
where there were lawful grounds for force. Price v. Elder,
175 F. Supp. 3d 676, 678–79 (N.D. Miss. 2016); Anderson
v. Franklin Cnty., Mo., 192 F.3d 1125, 1132 (8th Cir. 1999)
(holding that alleged excessive force and arrest “plainly
implicates the protections of the Fourth Amendment and
that no cognizable § 1983 First Amendment claim has
been asserted”); Jenkins v. Town of Vardaman, Miss., 899
F.Supp.2d 526, 534 (N.D. Miss. 2012) (“An allegation that
excessive force was used in the course of making an arrest
is clearly a Fourth Amendment, not a First Amendment,
matter.”); Kirk v. Bostock, No. 09–CV–15018–DBH, 2011
WL 52733, at *3 (E.D. Mich. Jan. 7, 2011) (granting
summary judgment on First Amendment claim based
on “the same set of facts” as the Fourth Amendment
excessive force claim); Montoya v. City of Albuquerque,
No. 03–CV–0261–JB, 2004 WL 3426436, at *10 (D.N.M.
May 10, 2004) (“The Court believes that allowing Plaintiffs
to proceed with their First Amendment retaliation claim
would unnecessarily complicate excessive force claims
brought under the Fourth Amendment and would be
contrary to the Supreme Court’s holding in Graham v.
Connor.”); Lagrone v. Hall, No. 91–CV–7133–ACW, 1992
WL 350702, at *3 (N.D.Ill. Nov. 23, 1992) (dismissing First
Amendment claim based on excessive force, and noting
“that the Fourth Amendment is the only appropriate
vehicle for relief on a claim of excessive use of force during
an arrest”).
Two common, and significant, strings run through
Cook, etc. that differentiate those cases from this matter
but were not mentioned by Plaintiff. The first is that none
of the defendants in those cases had lawful authority to use
any level of force. Not one defendant, not even the officer

6
in Campbell that used excessive force after an arrest was
complete, had authority at that time of the disputed force
to use some level of force. Campbell v. Mack, 777 Fed.
App’x 112, 134 (6th Cir. 2019). In each case, the defendants’
retaliatory actions were not intimately intertwined in a
“Gordian knot” with their lawful arrest actions. [Petition
App. 11]
The second is that the plaintiffs were all engaged in
protected speech. None of the plaintiffs in any case cited
by Plaintiff admitted to engaging in disorderly conduct
prior to the disputed force. Plaintiff Sevy did though,
eliminating any First Amendment protections for his
conduct.
Plaintiff misrepresented these cases as factually
similar, when, in reality, they are dissimilar in the most
relevant manners. Plaintiff did not present any case law
which supports his position that other courts have decided
this issue similar to the manner he now asks this court to
apply the First Amendment. These misrepresentations
alone should dissuade this Court from reviewing this
matter; but, when read in conjunction with opinions of
the courts that have considered the issue – and decided to
the contrary – this Court’s decision should become all the
more clear. Moreover, these other opinions demonstrate
that this issue is not yet ripe for consideration by this
Court, when so few courts have flushed out the issues
associated with untying the “Gordian knot” created by
Plaintiff’s plea.

7
II. THE SIXTH CIRCUIT PROPERLY DECIDED
THE IS SUE ON THE GROU N DS OF
QUALIFIED IMMUNITY BECAUSE GRAHAM
CONCLUSIVELY DECIDED THE ISSUE AND
A NY DEVIATION WOULD DISTURB THE
CLARITY ACHIEVED BY GRAHAM.
The Sixth Circuit correctly applied this Court’s
precedent on the clearly established analysis. This Court
has highlighted that in cases of first impression qualified
immunity is generally extended to “all but the plainly
incompetent or those who knowingly violate the law.”
Ashcroft v. al-Kidd, 563 U.S. 731, 743 (2011) (quoting
Malley v. Briggs, 475 U.S. 335, 341 (1986)) (referencing
Wilson v. Layne, 526 U.S. 603, 618 (1999)). The issue in
this case surely cannot clear the “clearly established”
hurdle because Graham, decided in 1989, established
that an officer’s use of force during a lawful arrest must
be evaluated under the Fourth Amendment. Graham,
490 U.S. at 395 (holding “explicit[ly]” that “all claims that
law enforcement officers have used excessive force…in
the course of an arrest…should be analyzed under the
Fourth Amendment…”). What Plaintiff now advocates
for—analysis of use of force under the First Amendment
as well—is contrary to Graham’s explicit statement.
This Court should reject the invitation to expand the
use of force analysis to incorporate the First Amendment
as doing so would create confusion for law enforcement
when faced with split-second arrest decisions. As this
Court recognized in Nieves, “protected speech is often
a ‘wholly legitimate consideration’ for officers when
deciding whether to make an arrest.” Nieves, 139 S. Ct.
at 1724, 204 L.Ed. 2d 1. It would create an untenable and

8
dangerous standard for law enforcement to expand an
officer’s considerations in those split-second decisions to
also consider the First Amendment implications of force
where lawful grounds already present themselves.
Moreover, this case does not present the Court
with the opportunity to create such expansion because,
unlike Nieves, probable cause is not even in dispute.
Here, it is conclusively established that Defendant
had lawful authority to arrest Plaintiff. As the Sixth
Circuit suggested, even if the Court were to reach the
constitutional question, Plaintiff would have a difficult
time succeeding due to the “thorny” issues related to
causation and probable cause that led this Court to
previously reject retaliation claims in Nieves v. Bartlett,
139 S. Ct. 1715, 204 L. Ed. 2d 1 (2019). [Petition App. 10]
Plaintiff’s difficulty lies in the fact that he engaged
in, at a minimum, a mix of protected and unprotected
speech by pleading to disorderly conduct. [Petition App.
10] This Court’s causation analysis in Nieves should apply
equally to force retaliation claims because “it would be
‘particularly difficult to determine whether the adverse
government action was caused by the officer’s malice or
the plaintiff’s potentially criminal conduct.’” [Petition App.
10, quoting Nieves, 139 S. Ct. at 1724.] Plaintiff’s proposed
force retaliation claim would require the impossible
delineation between which amount of force was due to
an officer’s animus towards the protected speech, which
amount was animus due to the illegal conduct, and which
was due to a legitimate government interest. Thus, this
case does not present a clear foundation for this Court to
even consider an expansion of Graham.

9
This Court should instead allow the Sixth Circuit
ruling to stand under the qualified immunity analysis and
the probable cause bar adopted in Nieves.
CONCLUSION
Plaintiff has not properly presented any issue for this
Court to review at this time. His legal arguments are
unsupported theories, riddled with misrepresentations.
The issue at the heart of this petition is whether the
Court should inextricably intertwine the First and Fourth
Amendments to allow a retaliation claim for force applied
during the act of a lawful arrest. Allowing such an analysis
would extend the protections of the First Amendment to
a mix of unprotected and protected speech and create a
difficult, and unmanageable framework of analysis for law
enforcement and courts. Therefore, Defendants urge this
Court not to review this matter at this time.
Respectfully submitted,
T. Joseph Seward
Counsel of Record
K ali M. L. Henderson
Seward Henderson PLLC
210 East 3rd Street, Suite 212
Royal Oak, MI 48067
(248) 733-3580
jseward@sewardhenderson.com
Attorney for Respondent
DATED: December 4, 2020

